OFFICE OF THE ATTORNEY GENERAL
James H. Percival
Chief Deputy Solicitor General

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3300
Fax (850) 410-2672
James.Percival@myfloridalegal.com

May 20, 2021
VIA ELECTRONIC DELIVERY
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Gianinna Gallardo v. Secretary of the Florida Agency for Health Care
Administration, Case No. 20-1263

Dear Mr. Harris:
Pursuant to Rule 30.4, Respondent respectfully requests a 60-day extension to file
its response to the petition for certiorari, extending the May 27, 2021 deadline to July 26,
2021. This is Respondent’s second request for an extension. The extension is necessary
because both of Respondent’s lead counsel—the Solicitor General of Florida and I, the
Chief Deputy Solicitor General for Civil Litigation—are leaving the Office of the Solicitor
General. The Solicitor General is leaving the Office of the Attorney General altogether and
has already withdrawn from this case, and I am transitioning to a new role in a different
part of the Office. The new General and Chief Deputy will require additional time to
familiarize themselves with this case and file the response. Absent an extension, they will
not have an opportunity to participate in the drafting of the response even though the
response will inform the issues presented, see Sup. Ct. R. 14(1)(a), and they will be charged
with briefing and arguing the case if review is granted.
My office sought Petitioner’s consent to this request, but counsel informed us that
Petitioner objects because a 60-day extension would result in the Court considering her
petition at its long conference rather than at a June conference. That is not a reason to deny
the request. First, even without the extension, the petition might be set for the long
conference since the response is not due until May 27. Second, if Petitioner had concerns

about the long conference, she should have filed her petition more expeditiously. She
waited nearly five months to file it. The Eleventh Circuit denied her request for rehearing
in October 2020, but she did not file the petition until March 2021. After that delay,
Petitioner cannot claim that she would be prejudiced if Respondent were to receive more
time to file its response. Finally, this case is not time-sensitive. It presents programmatic
issues of state reimbursement for Medicaid expenses, and Petitioner has never asserted that
an expedited resolution is necessary. She entered her underlying tort settlement a decade
ago and commenced this action in 2016. An additional two-month delay will not prejudice
her.
Respondent has a significant interest in this case. It implicates Florida’s duties
under the Medicaid Act and its funding for Medicaid services, which it provides to four
million people. An additional 60 days will afford Respondent the time necessary to draft
an adequate response, with input from the state’s new Solicitor General and Chief Deputy
Solicitor General.

Sincerely,
/s/ James H. Percival
James H. Percival
Counsel of Record
cc:

Bryan Gowdy
Counsel of Record

